      DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Office of Inspector General


                                                                              Washington, D.C. 20201




August 1, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Select Medicaid Inpatient Psychiatric Hospital Service Requirements
               for One Illinois State-Owned Psychiatric Hospital During the Period January 1,
               2000, Through December 31, 2009 (A-05-10-00046)


Attached, for your information, is an advance copy of our final report on select Medicaid
inpatient hospital service requirements for one Illinois State-owned psychiatric hospital. We will
issue this report to the Illinois Department of Healthcare and Family Services within 5 business
days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Stephen Slamar, Acting Regional Inspector General for Audit Services, Region V, at
(312) 353-7905 or through email at Stephen.Slamar@oig.hhs.gov. Please refer to report number
A-05-10-00046.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
August 3, 2011

Report Number: A-05-10-00046

Ms. Julie Hamos
Director
Illinois Department of Healthcare and Family Services
Prescott E. Bloom Building
201 South Grand Avenue East, 3rd Floor
Springfield, IL 62763-0002

Dear Ms. Hamos:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Select Medicaid Inpatient Psychiatric Hospital
Service Requirements for One Illinois State-Owned Psychiatric Hospital During the Period
January 1, 2000, Through December 31, 2009. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Markulin, Audit Manager, at (312) 353-1644 or through email at
David.Markulin@oig.hhs.gov. Please refer to report number A-05-10-00046 in all
correspondence.

                                             Sincerely,



                                             /Stephen Slamar/
                                             Acting Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Julie Hamos


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  REVIEW OF SELECT MEDICAID
INPATIENT PSYCHIATRIC HOSPITAL
  SERVICE REQUIREMENTS FOR
  ONE ILLINOIS STATE-OWNED
     PSYCHIATRIC HOSPITAL
      DURING THE PERIOD
   JANUARY 1, 2000, THROUGH
      DECEMBER 31, 2009


                        Daniel R. Levinson
                         Inspector General

                           August 2011
                          A-05-10-00046
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Illinois Medicaid Program

The Illinois Department of Healthcare and Family Services (the State agency) administers the
Illinois Medicaid program. Pursuant to the CMS-approved State plan, the State agency provides
federally matched Medicaid funding to eligible hospitals. The State agency works with the
Illinois Department of Human Services, Division of Mental Health, to operate nine State-owned
psychiatric hospitals that provide inpatient treatment for mental health conditions. Hospital A is
a State-owned institution for mental diseases and psychiatric hospital that provides inpatient
psychiatric services primarily to individuals referred through the court system. Hospital A
participates in the Medicaid, but not the Medicare, program.

Federal Requirements

For States to claim Federal matching funds for their inpatient psychiatric service and
disproportionate share hospital (DSH) payments to a psychiatric hospital, the hospital’s inpatient
services must meet the Federal definitions of such services. These definitions require the
provider to demonstrate compliance with the basic Medicare Conditions of Participation (CoP)
generally applicable to all hospitals and two special Medicare CoP applicable to psychiatric
hospitals. The basic Medicare CoP address issues such as licensing, quality of care, safety,
patient rights, self assessment and performance improvement, and service availability. The
special Medicare CoP specify staffing and medical record requirements.

A psychiatric hospital must undergo review by appropriate health care professionals to
demonstrate compliance with the basic and special Medicare CoP. Medicare-participating
psychiatric hospitals are generally deemed to meet both the basic and special Medicare CoP for
Medicaid purposes. If psychiatric hospitals do not participate in Medicare, they can generally
demonstrate compliance with the basic, but not the special, Medicare CoP through hospital
accreditation by CMS-approved organizations, such as the Joint Commission. For such hospitals
to demonstrate compliance with the special Medicare CoP, they must be specially surveyed.
Accreditation or survey by appropriate health care professionals is necessary to provide CMS
with reasonable assurance that participating facilities are improving the health and protecting the
safety of Medicaid beneficiaries.



                                                 i
For periods during which a psychiatric hospital does not demonstrate compliance with the basic
and special Medicare CoP, all inpatient psychiatric service and DSH payments received from the
State agency are ineligible for Federal matching funds.

CMS made a technical error when it issued Medicare transplant center CoP regulations in 2007.
Effective June 28, 2007, it inadvertently omitted certain Medicare psychiatric hospital CoP
regulations that were relevant to this audit. CMS formally reinstated the omitted regulations
effective October 26, 2007. Despite the omission, CMS’s subregulatory guidance remained in
effect during the period from June 28, 2007, through October 25, 2007 (the regulatory gap
period).

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal matching funds for
inpatient psychiatric service and DSH payments made to hospital A in accordance with select
Federal inpatient psychiatric hospital service requirements.

SUMMARY OF FINDING

The State agency claimed $82,929,010 in Federal matching funds for inpatient psychiatric
service and DSH payments made to hospital A that were not in accordance with select Federal
inpatient psychiatric hospital service requirements. We have set aside $12,590,126 in Federal
matching funds for payments made to hospital A for claims with dates of service during the
regulatory gap period. During the audit period, hospital A did not demonstrate compliance with
the special Medicare CoP because the State agency did not believe that such demonstration was
necessary.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $82,929,010 to the Federal Government for its share of inpatient psychiatric
       service and DSH payments made to hospital A for claims with dates of service outside
       the regulatory gap period,

   •   work with CMS to determine whether the State agency should refund an additional
       $12,590,126 to the Federal Government for its share of payments made to hospital A for
       claims with dates of service during the regulatory gap period,

   •   identify and refund the Federal share of any additional payments made to hospital A for
       claims with dates of service after the audit period if neither the State agency nor
       hospital A can demonstrate the hospital’s compliance with Federal inpatient psychiatric
       hospital service requirements, and




                                               ii
   •   ensure that Federal matching funds for inpatient psychiatric service and DSH payments
       are claimed only for psychiatric hospitals that can demonstrate compliance with the
       special Medicare CoP.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State agency disagreed with our recommendations. The
State agency indicated that the CMS-approved Illinois State plan includes State-owned facilities
with Joint Commission accreditation in its definition of DSH-eligible hospitals and concluded
that our finding and recommendations conflict with that definition. The State agency’s
comments are included in their entirety as the Appendix.

After reviewing the State agency’s comments on our draft report, we maintain that our finding
and recommendations are valid. Federal requirements mandate that Federal matching funds for
inpatient psychiatric service and DSH payments to psychiatric hospitals can be claimed only for
those facilities that demonstrate compliance with the special Medicare CoP.




                                               iii
                                                    TABLE OF CONTENTS

                                                                                                                                            Page

INTRODUCTION......................................................................................................................... 1

     BACKGROUND ...................................................................................................................... 1
       Medicaid Program ............................................................................................................... 1
       Illinois Medicaid Program .................................................................................................. 1
       Federal Requirements ......................................................................................................... 1

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 3
       Objective ............................................................................................................................. 3
       Scope ................................................................................................................................... 3
       Methodology ....................................................................................................................... 3

FINDING AND RECOMMENDATIONS .................................................................................. 4

     FEDERAL REQUIREMENTS ................................................................................................. 4

     FAILURE TO DEMONSTRATE COMPLIANCE WITH SPECIAL
     CONDITIONS OF PARTICIPATION ..................................................................................... 4

     RECOMMENDATIONS .......................................................................................................... 5

     STATE AGENCY COMMENTS ............................................................................................. 5

     OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 6

APPENDIX

     STATE AGENCY COMMENTS




                                                                       iv
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Illinois Medicaid Program

The Illinois Department of Healthcare and Family Services (the State agency) administers the
Illinois Medicaid program. According to the CMS-approved State plan, the State agency
provides federally matched Medicaid funding to eligible hospitals. The State agency works with
the Illinois Department of Human Services, Division of Mental Health, to operate nine
State-owned psychiatric hospitals that provide inpatient treatment for mental health conditions.

Hospital A is a State-owned institution for mental diseases (IMD) and psychiatric hospital that
provides inpatient psychiatric services primarily to individuals referred through the court system.
Hospital A participates in the Medicaid, but not the Medicare, program.

Federal Requirements

For States to claim Federal matching funds for their inpatient psychiatric service and
disproportionate share hospital (DSH) payments to a psychiatric hospital, the hospital’s inpatient
services must meet the Federal definitions of such services. These definitions require the
provider to demonstrate compliance with the basic Medicare Conditions of Participation (CoP)
generally applicable to all hospitals and two special Medicare CoP applicable to psychiatric
hospitals.

Medicaid Payments

Pursuant to section 1903(a)(1) of the Act, States can claim Federal matching funds for their
Medicaid medical assistance and DSH payments. For patients in IMDs, a category that generally
includes psychiatric hospitals, medical assistance includes inpatient hospital services for
individuals aged 65 or older but excludes care or services for younger individuals except for
inpatient psychiatric hospital services for individuals under age 21 (section 1905(a) of the Act). 1
In addition, if a certain percentage of a psychiatric hospital’s inpatient days are attributable to


1
 Pursuant to 42 CFR § 441.151(a)(3), medical assistance also includes necessary inpatient psychiatric hospital
services for individuals aged 21 if they were receiving such services immediately before reaching age 21.


                                                         1
Medicaid-eligible patients, the hospital may be a DSH and entitled to DSH payments pursuant to
section 1923 of the Act.

Definitions of Medicaid Inpatient Psychiatric Hospital Services

The Federal definitions of Medicaid inpatient psychiatric hospital services require the hospitals
providing such services to comply with Medicare CoP, including two special Medicare CoP.

CMS explained that it made a technical error when it issued Medicare transplant center CoP
regulations effective June 28, 2007 (72 Fed. Reg. 60787 (October 26, 2007)). When it amended
42 CFR part 482, subpart E, in 72 Fed. Reg. 15198 (March 30, 2007), CMS inadvertently
omitted 42 CFR §§ 482.60–482.62, which are Medicare psychiatric hospital CoP regulations
relevant to this audit. The Federal Register notice that explained the error reinstated the omitted
regulations effective October 26, 2007. Despite the omission, CMS’s subregulatory guidance
(e.g., manuals) remained in effect and was used from June 28, 2007, through October 25, 2007
(the regulatory gap period).

Demonstrating Compliance With Medicare Conditions of Participation

To demonstrate compliance with the basic and special Medicare CoP, a psychiatric hospital must
undergo review by appropriate health care professionals. Medicare-participating psychiatric
hospitals are generally deemed to meet both the basic and special Medicare CoP for Medicaid
purposes (42 CFR § 488.5(b)). If psychiatric hospitals do not participate in Medicare, they can
generally demonstrate compliance with the basic, but not the special, Medicare CoP 2 through
hospital accreditation by CMS-approved organizations, such as the Joint Commission 3
(42 CFR § 488.5(a)). However, accreditation by such CMS-approved organizations does not
demonstrate compliance with the special Medicare CoP. According to the CMS State
Operations Manual, section 2718A, psychiatric hospitals must be specially surveyed by qualified
psychiatric health care professionals to demonstrate compliance with the special Medicare CoP.
Accreditation or survey by appropriate health care professionals is necessary to provide CMS
with reasonable assurance that participating facilities are improving the health and protecting the
safety of Medicaid beneficiaries.

For periods during which a psychiatric hospital does not demonstrate compliance with the basic
and special Medicare CoP, all inpatient psychiatric service and DSH payments received from the
State agency are ineligible for Federal matching funds.




2
  One exception is the utilization review requirement in 42 CFR § 482.30; however, compliance with the utilization
review requirement was outside the scope of our audit.
3
 The Joint Commission was previously known as the Joint Commission on Accreditation of Healthcare
Organizations and is so referenced in 42 CFR § 488.5(a).


                                                         2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal matching funds for
inpatient psychiatric service and DSH payments made to hospital A in accordance with select
Federal inpatient psychiatric hospital service requirements.

Scope

For the period from January 1, 2000, through December 31, 2009, we reviewed hospital A’s
compliance with select Federal inpatient psychiatric hospital service requirements. We identified
$95,519,136 in inpatient psychiatric service and DSH payments made to hospital A for claims
with dates of service in periods during which it did not demonstrate such compliance. We
limited our review of the State agency’s internal controls to those significant to the objective of
our audit.

We performed our fieldwork from February 2010 to December 2010.

Methodology

To accomplish our objective, we:

   •    examined Federal and State Medicaid requirements regarding inpatient psychiatric
        hospital services,

   •    identified periods for which neither the State agency nor hospital A could demonstrate
        hospital A’s compliance with select Federal inpatient psychiatric hospital service
        requirements,

   •    held discussions with State agency officials and reviewed their Medicaid payment
        records, and

   •    quantified the Federal matching funds for inpatient psychiatric service and DSH
        payments made to hospital A for claims with dates of service during periods when it did
        not demonstrate compliance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




                                                3
                           FINDING AND RECOMMENDATIONS

The State agency claimed $82,929,010 in Federal matching funds for inpatient psychiatric
service and DSH payments made to hospital A that were not in accordance with select Federal
inpatient psychiatric hospital service requirements. We have set aside $12,590,126 in Federal
matching funds for payments made to hospital A for claims with dates of service during the
regulatory gap period. During the audit period, hospital A did not demonstrate compliance with
the special Medicare CoP because the State agency did not believe that such demonstration was
necessary.

FEDERAL REQUIREMENTS

Pursuant to 42 CFR §§ 440.140(a) and 482.60, an IMD in which individuals aged 65 or older
receive Medicaid inpatient hospital services must meet the basic Medicare CoP
(42 CFR §§ 482.1–482.23 and 42 CFR §§ 482.25–482.57) applicable to all hospitals and two
special Medicare CoP applicable to psychiatric hospitals (42 CFR §§ 482.61 and 482.62).
Pursuant to sections 1905(h)(1) and 1861(f) of the Act, if inpatient psychiatric services furnished
to individuals under age 21 are provided in a psychiatric hospital, the psychiatric hospital must
also meet the basic and special Medicare CoP. Psychiatric hospitals that provide Medicaid
inpatient psychiatric services must meet the same Medicare CoP for their DSH payments to be
eligible for Federal matching funds.

The Medicare CoP for psychiatric hospitals are minimum standards that provide a basis for
improving quality of care and protecting the health and safety of Medicaid beneficiaries. The
basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights, self
assessment and performance improvement, and service availability (42 CFR §§ 482.1–482.23
and 42 CFR §§ 482.25–482.57). The special staffing Medicare CoP require that psychiatric
hospitals “have adequate numbers of qualified professional and supportive staff to evaluate
patients, formulate written, individualized comprehensive treatment plans, provide active
treatment measures, and engage in discharge planning” (42 CFR § 482.62). The special medical
record Medicare CoP require that “medical records maintained by a psychiatric hospital …
permit determination of the degree and intensity of the treatment provided to individuals who are
furnished services in the institution” (42 CFR § 482.61).

FAILURE TO DEMONSTRATE COMPLIANCE WITH
SPECIAL CONDITIONS OF PARTICIPATION

The State agency improperly claimed $82,929,010 in Federal matching funds for inpatient
psychiatric service and DSH payments made to hospital A for claims with dates of service
outside the regulatory gap period. Hospital A did not participate in Medicare but was accredited
by the Joint Commission during the audit period. That accreditation generally demonstrated
hospital A’s compliance with the basic Medicare CoP. However, hospital A was never specially
surveyed to demonstrate compliance with the special Medicare CoP because the State agency did
not believe that such a survey was necessary.




                                                 4
We have set aside for further review by CMS and the State agency $12,590,126 in Federal
matching funds for payments made to hospital A for claims with dates of service during the
regulatory gap period. Despite CMS’s inadvertent omission of 42 CFR §§ 482.60 through
482.62 in 72 Fed. Reg. 15198 (March 30, 2007), CMS’s subregulatory guidance remained in
effect during this period. The table shows improperly claimed and set-aside Federal matching
funds by payment type and period.

Improperly Claimed and Set-Aside Federal Matching Funds by Payment Type and Period

                      Payments for Claims With Dates of Service From
                     January 1,
    Payment        2000–June 27,       June 28–       October 26, 2007–
      Type              2007        October 25, 2007 December 31, 2009      Total
   Service              $4,960,459          $212,041          $1,402,189 $6,574,689
   DSH                  47,144,442        12,378,085          29,421,920 $88,944,447
    Total               52,104,901        12,590,126          30,824,109 $95,519,136
   Improperly
   Claimed             $52,104,901                               $30,824,109 $82,929,010
   Set Aside                               $12,590,126                       $12,590,126
                                                                 Grand Total $95,519,136

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $82,929,010 to the Federal Government for its share of inpatient psychiatric
       service and DSH payments made to hospital A for claims with dates of service outside
       the regulatory gap period,

   •   work with CMS to determine whether the State agency should refund an additional
       $12,590,126 to the Federal Government for its share of payments made to hospital A for
       claims with dates of service during the regulatory gap period,

   •   identify and refund the Federal share of any additional payments made to hospital A for
       claims with dates of service after the audit period if neither the State agency nor
       hospital A can demonstrate the hospital’s compliance with Federal inpatient psychiatric
       hospital service requirements, and

   •   ensure that Federal matching funds for inpatient psychiatric service and DSH payments
       are claimed only for psychiatric hospitals that can demonstrate compliance with the
       special Medicare CoP.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency disagreed with our recommendations. The
State agency indicated that the CMS-approved Illinois State plan includes State-owned facilities


                                                5
with Joint Commission accreditation in its definition of DSH-eligible hospitals and concluded
that our finding and recommendations conflict with that definition. While the State agency
agreed to prospectively require hospital A to demonstrate compliance with the special Medicare
CoP, it disagreed with the retrospective nature of our recommendations in the absence of Federal
guidance requiring changes to the Illinois State plan. The State agency also interpreted the
absence of recommendations for hospital A in a previous Office of Inspector General (OIG)
audit report as an OIG opinion regarding Medicare certification requirements.

The State agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments on our draft report, we maintain that our finding
and recommendations are valid. Federal requirements mandate that Federal matching funds for
inpatient psychiatric service and DSH payments to psychiatric hospitals can be claimed for only
those facilities that demonstrate compliance with the special Medicare CoP. The CMS State
Operations Manual, section 2718A, states, “To participate in … Medicaid, a psychiatric hospital
must meet the special medical records and special staffing requirements.” The OIG audit report
referenced by the State agency (A-05-01-00059, August 25, 2004) addressed neither Medicare
certification nor the special Medicare CoP.




                                               6
APPENDIX
                                                                                                               Page 1 of2


                         APPENDIX: STATE AGENCY COMMENTS 




                  ,."." ...".. . .
fHPS              Hcalthcarc and
                  Family Services
                                                                                    Pat Quinn, Govern or
                                                                                    Julie Hamos, Director


201 South Grand Avenue East                                                         Telephone: (217) 782-1200 

Springfield, Illinois 62763·0002                                                    TTY: (800) 526-5812 





                                                     May 20, 20 11




     Departm ent of Health mId Hum an Serv ices 

     Olliee of Audit Services, Region V 

     Alln: James C. Cox. Regional Inspector General for Audi t Scn ·iccs 

     233 North Michi gru\ Avenue, Suite 1360 

     Chi cago, Illinois 6060 1 


     Re: Draft Audi t Report NlUnber A-05- \ O· OOO46

     Dear 1...lr. Cox:

     l hank you for providing the opportunity to comment on your draft audit re port entitled "'Relliew of
     Select Medicaid Inpalienl P.fychilllric Hospilal Service ReqIlir2menls for One Illinois Slale_Owned
     Psychiatric Hospital During the Period January 1. 2000. Through December 11. 2009. .,

     Illi no is does not concur with an y of the recommend at ions in the draft aud it report . All fOUT of the
     recommendations are based upon the pri nciple th at th e Stat e-owned C hester Menta l Health Center, an
     institution for menta l diseases (IMD), lUust meet the Medicare s p e~ i al cond itions of palticipati on (CoPs)
     regnrding stafilng and reoord keeping, applica ble to psychiatric facilities, in order to be eligible to receive
     Medicaid sen 'ice and disproport ionate share hospital adj ustm ent (DS H) paym ents.

     Since March I, 1995, the app roved Illinois State plan has defi ned th e qua lificati ons or a DSH-e ligible
     Hospital to incl ude a State-ownoo racilit y w ith JCA HO accreditation. TIle State Plan never required
     l\1L-dicare certi ficat iOIl nor has eMS ever pro vided Illinois any guidance to indicate that our approved
     requirements were lacki ng in allY way. C MS re viewed this State plan lan gua ge again in 1998 alld the
     mcthodology for th e IM D DSI-I pa)lIIcllts ill 2000.

     During the late 1990s lUid early 2000s, CMS reviewed Illinois' IM D DSH paym ents, whi ch incl uded
     payments to th e Chester facility. During thesc rC" icws. CMS requcs ted copics of the fac ilities' JCAHO
     accreditat ion. Not ollce did eMS retluest an y inronnalion that would re late to Medi care stanin g or
     recordkeeping re quirements. TIlcreiore, in the numero us review~, CMS ne ver indicated thaI hos pitals
     needed t o co mpl y wit h th e addit ional Medi care certifi cation requirements beyond JCA HO accreditation.




E-mail : hfs .'ltebmaster@lIinois .gov                                             Internet: http://wvMI.hfs.iI!inois.gov/
                                                                                                     Page 2 of2




In August 2004, your ollicc released an audit or Illinois' IMD DSH program in which one orthe slaled
audit objCt:livcs was \0 dC\L'1l11inc whether, "Statc-owncd [MD (udlil;!':); wcre qualified to receive DSH
payments." During the uudil fieldwork, your SI;ln"rcqUCSICd JCAHO :Iccrcditation Icllcrs for all orlhe
Slnh:-owncd 1MOs, but never requested proof of Medicare certification nor mentioned Ihal sp~:ci:1I
Medicare conditions ofp3r1icipation must be met. The audit report did not question any DSH p:lymcllts
made to the Chester facility in fiscal year 2000.

This current audit contliels with your ollice's previous opln1Ons in interpreting the opplicobility of
requiring Medicare certification, as well as eMS Siale Plan 3pprovals and guidance. Further, hy
concluding thai the Chester facility did l'\Ot meet such stnndaros from 2000 through 2009, it is also
Jircctly overlapping your previous audit thnt raised no such coneems. If this audit is now clarifying the
requirement of Medicnre ccrtification, we can agree to apply this standard prospcdively. Howevcr. wc
cannotagrce to any such retrospective interpretation uf policy, particularly when it is applied over a 10­
year period and lies in stark contrast to the interpretations and guidance provided by bulh eMS and your
office during that period.

Thank you lor the opportunity to review the drurt audit report and provide this response. If you have
   qUC5tions or comments about our rcsponsc 10 the audit, please contact Jamie Na rdulli. External
:lOy
Audit Liaison, at (217) 558· 2527 or through cmail at j·nnie.lnrdullil(l~ illil1n is.!!.(lv.

Sincerely.




   ~
                 I~
Julie Hamos
Director
